<html>
<title> - IMPROVING IMPLEMENTATION OF THE HAGUE CONVENTION ON THE CIVIL ASPECTS OF INTERNATIONAL CHILD ABDUCTION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



                 IMPROVING IMPLEMENTATION OF THE HAGUE
                   CONVENTION ON THE CIVIL ASPECTS OF
                     INTERNATIONAL CHILD ABDUCTION

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                            AND HUMAN RIGHTS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 28, 2011

                               __________

                           Serial No. 112-101

                               __________

        Printed for the use of the Committee on Foreign Affairs






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE
67-603PDF                 WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001













                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director
                                 ------                                

        Subcommittee on Africa, Global Health, and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
JEFF FORTENBERRY, Nebraska           DONALD M. PAYNE, New Jersey
TIM GRIFFIN, Arkansas                KAREN BASS, California
TOM MARINO, Pennsylvania             RUSS CARNAHAN, Missouri
ANN MARIE BUERKLE, New York













                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Susan Jacobs, Special Advisor for Children's 
  Issues, Bureau of Consular Affairs, U.S. Department of State...     7
The Honorable Kurt Campbell, Assistant Secretary of State, Bureau 
  of East Asian and Pacific Affairs, U.S. Department of State....    17

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Susan Jacobs: Prepared statement...................    10
The Honorable Kurt Campbell: Prepared statement..................    21

                                APPENDIX

Hearing notice...................................................    42
Hearing minutes..................................................    43
The Honorable Susan Jacobs: Written responses to questions 
  submitted for the record by:
  The Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey, and chairman, 
    Subcommittee on Africa, Global Health, and Human Rights......    44
  The Honorable Russ Carnahan, a Representative in Congress from 
    the State of Missouri........................................    55

 
 IMPROVING IMPLEMENTATION OF THE HAGUE CONVENTION ON THE CIVIL ASPECTS 
                    OF INTERNATIONAL CHILD ABDUCTION

                              ----------                              


                        THURSDAY, JULY 28, 2011

              House of Representatives,    
         Subcommittee on Africa, Global Health,    
                                   and Human Rights
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3 o'clock 
p.m., in room 2172, Rayburn House Office Building, Hon. 
Christopher H. Smith (chairman of the subcommittee) presiding.
    Mr. Smith. The subcommittee will come to order, and good 
afternoon. First of all, let me apologize to our very 
distinguished witnesses and to all of you. We had eight votes 
in succession, and they began exactly at 2:00, so I apologize 
for that.
    I want to thank you for joining us this afternoon for this 
second hearing in our series focusing on the deeply disturbing 
and seemingly intractable problem of international child 
abduction, which occurs when one parent unlawfully moves a 
child from his or her country of residence, often for the 
purpose of denying the other parent access to the child. I 
believe it to be a major global human rights abuse, a form of 
child abuse that seriously harms children, while inflicting 
excruciating emotional pain and suffering on left-behind 
parents and families.
    On May 24th, at the first hearing in this series, this 
committee heard from six left-behind parents: One success story 
and five stories of deep and continuing agony and separation. 
Michael Elias, a combat-injured Iraq veteran from New Jersey 
told our subcommittee of his anguish after his ex-wife, Mayumi 
Nakamura, used her Japanese consulate connections to abduct 
little Jade and Michael, Jr., after the New Jersey court had 
ordered surrender of passports and joint custody. Ms. Nakamura 
flagrantly disregarded those valid court orders, telling 
Michael Elias, ``My country, Japan, will protect me''; and of 
course she was right. Although Japan is reportedly prosecuting 
her for abusing her consulate connections, they will not return 
the children.
    Michael Elias told us that ``As a father who no longer has 
his children to hold in his arms, I cannot deal with this 
sorrow, so I try my best to stay strong and keep fighting for 
their return. All my hopes,'' he went on to say, ``and dreams 
for their future now lie in the hands of others.'' He 
continued, ``I am begging our Government to help not only my 
family but hundreds of others who are heartbroken as well to 
demand the return of our American children who are being held 
in Japan.''
    We then heard from Joshua Izzard, who explained to us that 
his only child, 2-year-old Melisande, was torn away from him 
and everyone and everything she had known from birth in one 
cruel, selfish moment and abruptly plunged into a strange world 
of darkness, mental illness, and danger in Russia. His 
daughter, an American citizen, was taken out of the country 
using temporary travel papers supplied by the Russian Embassy. 
He told this committee that ``Our great country must stop this 
constant bleeding of its most important resource, its 
citizens.'' As a Nation, we need to put in place effective, 
preventive mechanisms to ensure that our citizens are not 
subjected to the daily unbearable sorrow that comes in the wake 
of an international parental kidnapping.
    We then heard from Carlos Bermudez, who has been battling 
for custody of his son, Sage, in the Mexican courts for 3 
years, facing every delay tactic in the book. He expressed his 
frustration with the courts, but, with all due respect, also 
with the Office of Children's Issues, which from his experience 
was like dealing with ``the DMV.'' He explained that when he 
requested government records of his son's entry and exit from 
the United States, OCI told him that it didn't have the 
information and asking them for it was like asking a plumber to 
fix his electrical. He told them that he felt it was more like 
asking a general contractor to work with the plumber and asked 
for their help to interface with other U.S. Government agencies 
that would only tell him to work with OCI. Other parents at the 
hearing and since have echoed his frustration with OCI.
    Colin Bower, whose two young sons, Noor and Ramsay, were 
abducted by his wife to Egypt 2 years ago with the assistance 
of the Egyptian Government after his wife lost custody because 
of her drug use and psychological problems, conveyed to this 
committee his frustration over the lack of priority abduction 
cases receive in foreign policy. He questioned why the United 
States was giving billions of dollars to Egypt in aid when 
Egypt was flagrantly violating valid U.S. court papers, 
preventing him from seeing his sons, and otherwise aiding and 
abetting a kidnapping.
    I would note parenthetically on Friday I chaired a hearing 
in the Helsinki Commission on an ever-worsening problem that 
has not been focused upon the way it should be, and that is the 
abduction of Coptic girls who are then forced to become Muslims 
and then are forced into marriage, usually on or after their 
18th birthday.
    Dr. Michele Clark, who is a leading expert on human 
trafficking, told us that there are thousands of these cases 
every year, and nary a whisper of discontent can be heard 
anywhere in the world about it. So we began to change that on 
Friday; and I do hope, while this panel will not address that, 
I did talk to Michael Posner earlier today, the Assistant 
Secretary for Democracy, Human Rights, and Labor, that this 
country and all countries need to speak out robustly on that 
horrific human rights abuse.
    Sara Edwards told us--again getting back from the situation 
with Egypt--that her nightmare began 2 weeks--this is Turkey, I 
should say--2 weeks into her son Eli's vacation to Turkey with 
his father. She allowed the vacation based on a shared 
parenting agreement she and her estranged husband had 
negotiated together but soon realized that her husband had used 
the agreement as a pretext for abduction.
    Turkey allowed him to divorce Ms. Edwards and gave him full 
custody of the son without Sara Edwards being present or 
notified of the proceedings. Turkey, as we know, is a party to 
the Hague Convention, and Ms. Edwards has opened an application 
but faces the daily threat from her estranged husband that he 
will run with the child to Syria. So he dangles that over her 
head, that she will never see her son again.
    She explained an experience that is much like that of many 
other parents, stating, and I quote, ``The obstacles I face 
fighting the abduction of my son are great. I am essentially on 
my own to fight a court battle in a foreign country where I do 
not know the language or understand the culture.''
    Douglas Trombino, whose daughter Morgana was kidnapped to 
Colombia in November, testified and echoed the feelings of many 
left-behind parents when he said, ``Families must remain 
families. The family unit is critical to the success and growth 
of a child.'' He went on to say, ``I want to be Morgana's dad. 
I want to touch and smell her and love her and interact with 
her and just love my daughter. Not through a computer screen,'' 
he went on. ``I don't want to blow bubbles to her via Skype, I 
don't want to send Easter baskets via FedEx, and I don't want 
to have to go through customs for a mere 24 hours of daddy-
daughter time. That to me is not being a father. I want to be 
Morgana's dad, her hero, her go-to 24/7 best friend,'' he 
concluded.
    Finally, we heard from David Goldman, who is here with us 
today, and he was the only parent who could tell of success. 
And although the Hague Convention requires return of children 
within 6 weeks, David's arduous struggle was 5\1/2\ years in 
the making. He told this committee that for years he ``lived in 
a world of despondency and desperation with a searing pain 
throughout my entire being. Everywhere he turned he saw an 
image of his abducted child.''
    I would note that David Goldman never quit, just like the 
current group of left-behind parents who have drawn inspiration 
from David Goldman's success as well as his courage and his 
love, and I hope he provides a pathway for all of us on how we 
can replicate that success and bring American children home.
    Indeed, the lessons learned from David Goldman's brave 
journey have been incorporated into H.R. 1940, the 
International Child Abduction Prevention and Return Act of 
2011. Specifically, the bill calls to establish an Ambassador-
at-Large wholly dedicated to international child abduction, not 
unlike what we have done with trafficking and very similar to 
what we have done with international religious freedom issues, 
to establish a robust and fully resourced office. People in the 
office are doing a good job. They don't have enough resources, 
I would argue, and enough people dedicated to do this work.
    It would also prescribe a series of increasingly punitive 
actions and sanctions the President and the Department of State 
may impose on a nation that demonstrates ``a pattern of 
noncooperation'' in resolving child abduction cases. Diplomatic 
overtures and admonishing words are simply not enough.
    I would note we would also chronicle the misdeeds or 
positive deeds of countries that have not been Hague signers so 
that we can get a better sense as to what they are doing and 
not doing. So the pattern of noncooperation would apply equally 
to Hague and non-Hague countries alike.
    Finally, in reading Assistant Secretary Kurt Campbell's 
testimony--and I deeply respect him, and I thank him for being 
here--I do remain concerned that, while expressing satisfaction 
that Japan may accede to the Hague Convention, the current 123 
active cases involving 173 American children would not be 
covered by the treaty provisions.
    Patricia Apy, who testified at our May 24th hearing and was 
David Goldman's attorney, has noted that Article 35 of the 
Convention provides, ``This Convention shall apply as between 
contracting states only to wrongful removals or retentions 
after entry into force in those States.''
    So while I appreciate Secretary Campbell's obvious empathy 
and compassion for the children and the left-behind parents and 
I am encouraged that efforts will be made by State to ``resolve 
existing child abduction cases and allow parents currently 
separated from their children to reestablish contact with them 
and ensure visitation rights,'' the exclusive emphasis seems to 
be only on ``visitation and access'' and not return.
    To that end, I and many others urge the Obama 
administration to negotiate a memorandum of understanding or a 
bilateral agreement with the Japanese to ensure that the 123 
left-behind parents and counting, because that number is likely 
to go up, perhaps significantly, before it is ratified, are not 
left behind a second time, this time by treaty promises and 
provisos that won't apply to them.
    Last week, I offered an amendment to the State Department 
reauthorization bill, backed by my good friend and colleague, 
Mr. Payne, and really the entire committee--Howard Berman spoke 
very positively of it, as did Chairman Ileana Ros-Lehtinen--
that expressed a sense of Congress that ``the United States by 
way of memorandum of understanding with the Government of Japan 
and through all appropriate means should seek the immediate 
return of all United States children wrongfully removed to or 
retained in Japan.''
    Delay is denial, and it does exacerbate the abuse of a 
child and the agony of the left-behind parent. Because the 
Hague Convention again specifically precludes its protections 
to all existing abduction victims, entry into force sans an MOU 
will likely produce or result in lost momentum and no return of 
current abducted American children.
    It is on behalf of left-behind parents and recognition of 
the extreme pain they suffer as victims and in recognition of 
our own duty as the U.S. Government that will bring these kids 
home that we hold this hearing today.
    Again, I want to thank our distinguished witnesses for 
being here, which I will introduce momentarily, but I yield to 
Mr. Payne for any opening comments.
    Mr. Payne. Thank you very much. Let me thank you for 
calling this very important hearing.
    I would also like to thank our distinguished witnesses for 
agreeing to testify here today.
    In May of this year, this subcommittee held a hearing 
entitled ``International Child Abduction: Broken Laws and 
Bereaved Lives.'' During that hearing, we heard heart-rending 
stories from the parents of children who had been 
internationally abducted and who are still fighting for their 
safe return. This hearing follows up on the first by examining 
how we can improve the implementation of the Hague Convention 
on the civil aspect of international child abduction.
    As you know, the Hague Convention is the principal 
mechanism by the United States and other countries to enforce 
the return of internationally abducted children. A treaty of 
this nature has become increasingly important with the rise of 
both international travel and bicultural marriages. There are 
currently 86 parties to the Hague Convention, and in 2008 60 of 
these nations were parties to 2,326 cases involving 3,179 
children. The overall return rate of these was 46 percent, with 
27 percent court ordered.
    While the Hague Convention has served as an important tool 
in returning children to their legal guardians, there remains 
several areas in which the treaty inadequately or outright 
fails to protect the rights of parents. The most notable of 
these is the existence of nonsignatories to the treaty. These 
nations have made no commitment to respect the custody 
arrangements in other countries and therefore are unlikely to 
participate in the extradition of a child on those grounds.
    Japan, as the only Group of Seven industrialized nation to 
not sign the treaty, has become the focus of international 
child abduction cases in recent years. The United States has 
the largest number of children abducted in denial of access 
disputes with Japan, with a total of 123 cases involving 173 
disputed children. Congress has recognized this problem and 
passed H.R. Res. 1326, which called on Japan to join the Hague 
Convention and to return American children. Both Ranking Member 
Smith and I were co-sponsors of that resolution, as has already 
been indicated.
    In May of this year, Japan announced that it would submit 
legislation to their Parliament to ratify the Hague Convention 
by the end of the year. While this is promising, Japan's 
Parliament has been slow moving in recent years due to 
political turmoil, and because of the introduction of the 
legislation it does not necessarily mean that the legislation 
will be successfully passed during this session of Parliament.
    Should Japan sign the agreement, there will need to be 
changes in their domestic laws in order to reflect the values 
of the international community. In Japan, joint custody is not 
recognized, and it is almost always the mother that is given 
sole custody. Fathers often lose their right to access and are 
unable to contact their children. This practice will need to 
change if Japan were to follow the provisions of the 
Convention.
    While Japan is certainly receiving the bulk of the 
attention, of the 86 participating nations, only four are from 
East Asia--Hong Kong, Macau, Thailand, and Singapore. I am 
interested in hearing from the panel how Japan's ratification 
of the Convention might affect the other nations in the region.
    Beyond the existence of nations that refuse to take part in 
the treaty are controversial provisions that do govern 
participating nations. For example, the Hague Convention makes 
an important distinction between the right to custody and the 
right to access. I look forward to hearing and learning from 
the panelists here today on how we can make the progress and 
the process of returning a child faster and more fair between 
States that have signed the treaty and how we approach cases 
where a nonsignatory State is involved.
    I look forward to hearing the testimony of the witnesses, 
and I will yield back the balance of my time.
    Mr. Smith. Thank you, Mr. Payne.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, chairman and ranking member, for 
calling this hearing today, and to the witnesses.
    This is an issue that we need to be shining a light on. The 
1980 Hague Convention on Civil Aspects of International Child 
Abduction is the principal international mechanism for the 
return of children. The Convention does not address the issue 
of child custody directly, but it does address how to determine 
the jurisdiction where a child custody dispute should be 
adjudicated.
    The American Bar Association and their Center for Children 
and the Law conducted a survey of parents whose children have 
been taken or retained by another country by another parent. 
The key challenges they cited that a parent faces when trying 
to locate and recover children abducted to foreign countries 
include lack of sufficient funds, difficulties with foreign 
laws and officials, difficulties with U.S. laws, judges 
inexperienced in handling international abduction cases, and 
inadequate responses by law enforcement agencies.
    The State Department has given us some numbers about the 
scope and size of this problem, including both Hague Convention 
and non-Hague Convention cases. The State Department Office of 
Children's Issues reports a total of 1,495 custody and access 
cases in 2010, involving a total of 2,123 children. So this is 
an issue that we need to be hearing more about, how we can get 
this process to work better, and appreciate what you all are 
here to do for us today.
    I yield back.
    Mr. Smith. Thank you.
    Mr. Frank.
    Mr. Frank. Thank you, Mr. Chairman and ranking member, for 
giving me the privilege of sitting with this panel. Because, as 
you know, I have a constituent, Colin Bower, who is 
particularly concerned about this; and, of course, it is an 
issue that I am supportive of in general.
    I would say that we sometimes, I think, hold back in using 
our legitimate moral authority because we worry about somehow 
alienating other countries. Now, I want America to be 
reasonable and fair in its dealings with other people, but, as 
a general rule, it does seem to me that most countries in this 
world need us more than we need them. I don't want to abuse 
that, but I think we sometimes assume that we can't press hard 
because people will get mad at us. Well, if I were many of 
these countries, I would be more worried about America getting 
mad at them. And, again, I don't say that to the extent that we 
should be bullies or that we should be overly aggressive. I do 
think, however, that a reasonable assessment of what the 
relationships are should allow us to press cases on their 
merits and not be held back by some fear that we will somehow 
lose influence.
    I have to say, and we were all around during the days of 
the Cold War, that I might have had some plausibility back 
then. I think even then it was overdone, but in today's world I 
do not see any reason why American citizens seeking justice, 
especially in the most sensitive possible area, parents seeking 
justice with regard to their own children, I cannot think of a 
diplomatic reason in the cases I have seen that ought to retard 
our efforts.
    So I thank you for the extent to which you both, on a 
bipartisan basis, have allowed us to press this very important 
moral cause.
    Mr. Smith. Thank you very much, Mr. Frank.
    I would like to now welcome our two very distinguished 
witnesses, beginning first with Ambassador Susan Jacobs, who 
currently serves as Special Advisor in the Office of Children's 
Issues at the State Department. Ambassador Jacobs has had a 
long and distinguished career in the Foreign Service in which 
she has served around the world, including in Papua New Guinea, 
where she was the Ambassador. She has also held a number of 
senior positions with the State Department in Washington, 
serving as a liaison to both Congress and the Department of 
Homeland Security. In addition, Ambassador Jacobs has recently 
visited Japan and participated in an international conference 
on the Hague Convention; and, without objection, her full 
resume will be made a part of the record and that of Dr. 
Campbell as well.
    Dr. Kurt Campbell currently serves as the Assistant 
Secretary of State in the State Department's Bureau of Asian 
and Pacific Affairs and has been in that position since June 
2009. Dr. Campbell has broad experience working with the 
government, having served as an officer in the Navy, in the 
Defense Department, National Security Council, the White House, 
and the Treasury Department. The only thing left is to run for 
Congress. In his time outside of government, he has founded an 
advisory firm focused on Asia, worked on international security 
issues at the Center for Strategic and International Studies, 
and been a professor at Harvard.
    Ambassador Jacobs, the floor is yours.

 STATEMENT OF THE HONORABLE SUSAN JACOBS, SPECIAL ADVISOR FOR 
CHILDREN'S ISSUES, BUREAU OF CONSULAR AFFAIRS, U.S. DEPARTMENT 
                            OF STATE

    Ms. Jacobs. Thank you very much.
    Chairman Smith, Ranking Member Payne, and distinguished 
members of the committee, and Mr. Frank, thank you for holding 
this important hearing and for the opportunity to update you on 
the hard work of my colleagues in the Department of State in 
responding to this global threat to the well-being of children. 
I also want to thank my colleague, Assistant Secretary 
Campbell, for his deep personal involvement in this issue.
    The problem of parental child abduction is deeply important 
to Secretary Clinton, who demonstrated her commitment to 
children by appointing me as her Special Advisor for Children's 
Issues last year. Tomorrow the Bureau of Consular Affairs and 
Assistant Secretary Janice Jacobs and Assistant Secretary 
Campbell will hold another town hall meeting with a group of 
left-behind parents, and this will be the sixth such town hall 
meeting to date.
    Mr. Chairman and Mr. Payne, your leadership and involvement 
in this area strengthens the U.S. Government's message to 
foreign courts and central authorities in long-standing 
abduction cases.
    My written statement goes into detail about my role, the 
role of the Office of Children's Issues, and the Department of 
State in general on this topic. Let me assure you that we are 
all committed to resolving current abduction cases, reuniting 
parents and children, and helping prevent future abductions. We 
strive to do what is in the best interests of children caught 
in these tragic situations. Case officers in the Bureau of 
Consular Affairs Office of Children's Issues and Foreign 
Service officers at our Embassies and consulates overseas work 
hard to achieve this goal every day.
    Unless we succeed in returning a child to the United 
States, we have not been successful. As you know, we have 
abduction cases to both Hague and non-Hague countries. We work 
equally hard in both areas to return children to the United 
States. As this chart demonstrates, over the past 5 years, we 
are increasing our success in achieving returns from both Hague 
and non-Hague countries. It is interesting to note that the 
non-Hague return numbers have remained about the same, while 
Hague returns have steadily been increasing. Of course, the 
existence of the Hague Convention makes our work easier in some 
ways, but we often encounter other challenges.
    In non-Hague countries we rely on quiet diplomacy, 
knowledge of local conditions, and respect for local customs, 
and often less visible means to try to resolve an international 
abduction case. The Hague Convention remains our best hope of 
resolving international abductions. It is the first subject 
that I bring up with foreign governments during my travels on 
behalf of the Secretary.
    Parental abductions are tragedies that affect American 
families both in the United States and overseas. When a parent 
flees with a child across a State line, there is certainty that 
a court order from one State will be recognized in another. For 
a left-behind parent there may be stress and fear, but there is 
also belief in the American judicial system and the rule of 
law.
    When a parent takes a child across an international border 
under false pretenses, the left-behind parent is faced with the 
daunting task of navigating unfamiliar legal, cultural, and 
linguistic barriers. They suffer emotional trauma and face 
significant and long-term financial stress to reunite with 
their children. We are fully committed to serving left-behind 
parents and children who are the victims of this crime.
    Let me give you some highlights of what we have been doing 
lately. Today, the Office of Children's Issues is one of the 
largest offices in the Bureau of Consular Affairs. We have 
almost a hundred people working on abductions. The growth of 
the office enables us to broaden our prevention activities, 
ensure consistently high standards of service, improve 
training, and engage more vigorously with other countries. It 
also allows us to monitor and improve our own compliance with 
the Convention.
    The Convention, although a successful operating agreement, 
is not a perfect instrument. Fostering compliance with the 
treaty is an ongoing challenge. Over the last few years, the 
Department has participated in numerous judicial conferences 
and met with officials from 23 countries. The efforts are 
paying off; and my written statement details improving 
relationships, but not perfect ones, with Mexico, Brazil, 
Switzerland, and Bulgaria. In non-Convention countries, 
examples of successful cases highlight how the Department of 
State can play an invaluable role in helping left-behind 
parents understand foreign laws and their options, and we can 
point to some recent successes in the Philippines and in Iraq.
    In conclusion, I want to assure you that we continue to 
develop programs and outreach to prevent abductions through 
increasing awareness of the issue. We work with other agencies, 
with nongovernmental organizations, we use social media in what 
we hope is a creative way, and we utilize our own consular 
affairs resources.
    Your support remains vital. We hope that Congress will 
extend visa ineligibilities for those who abduct or aid 
abduction to Convention countries as it now exists in non-Hague 
countries. We also hope that Congress will continue to support 
us in offering financial assistance to the Hague Permanent 
Bureau. Congressional interest remains crucial as we encourage 
other countries to join the Convention.
    Since accepting this challenging and rewarding position, I 
have met with many left-behind parents, some of whom are here 
today, and I have been deeply moved by their stories. I want to 
reiterate to them and to you that we will never forget our duty 
to serve each of our citizens and, most importantly our 
children; and I will be pleased to take your questions when 
appropriate.
    [The prepared statement of Ms. Jacobs follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Thank you very much, Ambassador Jacobs.
    Dr. Campbell.

 STATEMENT OF THE HONORABLE KURT CAMPBELL, ASSISTANT SECRETARY 
   OF STATE, BUREAU OF EAST ASIAN AND PACIFIC AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Mr. Campbell. Thank you very much, Chairman Smith; and let 
me join Ambassador Jacobs by just saying that we very much 
appreciate your compassion and your commitment to this 
incredibly difficult subject. Frankly, your activities have 
both motivated me and have given me a model for how to do my 
job.
    I also want to associate myself with my former Congressman, 
Congressman Frank. I think his perspective is at least the 
perspective that I try to use when undertaking the various 
aspects of this job.
    Let me just say that, as the Ambassador has indicated, this 
is a human tragedy that, unless you experience and have a 
chance to get to know these brave parents, it is just 
impossible to imagine. And I have been struck by their 
commitment, by their compassion, by a patience to try to keep 
at it even when I just--I can't imagine how they go on, to be 
perfectly honest; and every single one of them has demonstrated 
the kind of courage that I am not sure I myself would be able 
to summon in such a circumstance.
    The first time I had a chance to meet with the parents was 
on a previously scheduled meeting with the parents. I had just 
been confirmed in my job, and I remember sitting down with 
them. We had our team at the State Department, and after about 
15 minutes into the meeting, I just had to say, I was just 
woefully embarrassed. We just had not done a good enough job. 
We were not organized. We had not brought to bear the full 
capacities of the U.S. Government; and, frankly, we just 
apologized there on the scene and just said we have got to do a 
better job.
    That was about 2\1/2\ years ago. Since then, we have put 
together, working very closely with my colleagues and in 
consular affairs, probably one of the most substantial task 
forces we have inside the U.S. Government that involve key 
officials from the White House, from the Justice Department, 
the Department of Homeland Security, various other legal groups 
around the U.S. Government, every aspect of the State 
Department, also linking in with my colleagues on a very 
regular basis in Tokyo.
    I will also say, Ambassador Jacobs' job is primarily 
global. Mine is in Asia. The two countries we have worked most 
on over the course of the last 3 years are Japan and South 
Korea. And I am very pleased to say, although it has not come 
up, South Korea in January of this year agreed to accede, and 
they are well along in implementing language. And I will tell 
you that the steps they have taken are very impressive, and we 
often highlight them as a model for what we would like to see 
with respect to Japan.
    So I just want to underscore that we take this 
extraordinarily seriously. Every single meeting that Secretary 
Clinton has with her counterparts this comes up, every single 
meeting. Every meeting I have, this has come up. I have met 
with almost all of the key officials in Japan on numerous 
occasions, and I think, as has been pointed out, Congressman 
Smith, the most senior officials in the Japanese Government 
have indicated that they are going to sign the Hague 
Convention.
    Now, you know, I can understand why certain friends would 
say, well, that is a step, but it is not that impressive. You 
have no idea how hard it was to get to this point. And I will 
also underscore--and you mentioned it a little bit in your 
testimony--it would be very hard to describe some of the 
cultural challenges that we face in a variety of different 
countries. It is not unusual in Japan after a divorce that a 
father will rarely, if ever, see their children. So this is an 
issue that is not simply a source of great concern for the 
United States, but I must tell you it is an issue that is 
gaining momentum in Japan as well, and we actually hope to use 
this campaign to help people understand what we believe are 
some of the deep problems associated with separating families 
in this way.
    So I just want to underscore that we did not do a good 
enough job, but what we are trying to do now is make sure all 
of our databases are completely up to date, very regular 
communications. When we get specific information about where we 
have dropped the ball--that is why they call it government, 
after all--we try to follow up, make sure that we are taking 
the appropriate steps to be responsive to these particular 
issues. And, to be honest, if I ever hear of someone at least 
that I have some responsibility over or I work with that 
doesn't treat one of these parents with respect and doesn't 
understand the nature of the tragedy that they are dealing 
with, we often will immediately look for a new assignment for 
that person.
    So I just want to underscore--and if I could suggest, 
Congressman, if you would like, we are going to have a long 
meeting tomorrow afternoon. I would welcome if you would like 
to come to part of that or a member of your staff. We would 
welcome it. Some of that is going to be--some of that will be 
just on executive business, but I would love for you to come, 
perhaps speak, and I have--I would welcome it. I think it would 
be a great thing; and, frankly, I need to underscore that 
bringing attention to this issue is important.
    I don't want to go on too long, but I just want to make a 
couple other points, if I can, before we open it up to 
questions.
    Our most important relationship in Asia by an order of 
magnitude is with Japan. The U.S.-Japan security relationship 
is of utmost importance, and I stand really next to no man in 
terms of my commitment to this relationship. I will do anything 
to preserve a strong relationship between the United States and 
Japan because I believe it is in our mutual interests.
    One of the greatest sadnesses that I have in this 
relationship--I have been to Japan over 200 times in the last 
25 years, and I have talked to innumerable Japanese friends 
about this matter. Japanese people are a compassionate, 
wonderful people, and when they are educated and know about a 
topic, you can count on them to do the right thing. But I am 
struck again and again and again and again when we meet with 
Japanese friends and talk about these issues, the level of 
misunderstanding on these issues is profound, deep, and 
sometimes almost uniform. There is a view that these families 
are divided because of abuse, and there is not a deep 
recognition of some of the legal challenges that, frankly, we 
are coping with.
    And so no matter what we do going forward, and this will be 
an important part of the effort associated with the Hague 
Convention is an education campaign, and the area where I would 
like to see more support not only from the families and others, 
but I want very much for Japan to have a better sense of the 
human dimension here, and I am doing what I can to support 
this.
    I must just take a moment for kudos. The Ambassador that I 
have worked the most on this with is Ambassador Roos. No one 
has done more on this issue than Ambassador Roos, and he has 
made it his personal commitment and has met with all the 
organizations, many of the legal groups inside Japan to support 
this.
    And I will say that in many cases it is very hard to 
determine progress in life. We work on things for a long period 
of time, and it is hard to see progress. I have to honestly and 
modestly suggest that we have made real progress in the last 2 
years. There is a big change under way in Japan, and we 
anticipate when the Japanese leader visits in September that we 
are going to see a big step forward, and that would not have 
been possible, frankly, without your leadership, Congressman, 
and without the passion and commitment of the parents behind 
me.
    I also want to say that there are a couple of people, young 
people, professionals, Todd Campbell and others, who have been 
relentless on this and who have also been seized by the 
importance of this.
    The signing of the Hague Convention, as you have indicated, 
Congressman, is in no way a first--just simply a first step or 
a last step. It has to be part of a process, and we have 
underscored in all of our conversations with Japanese 
interlocutors at the highest level that what we are concerned 
by is not just cases going forward, not just improving 
practices going forward, but retroactive, cases that came 
before or that come before the signing of the agreement.
    But here I must underscore to you--and I appreciate the 
information that has been provided to you--there are actually 
many cases globally where countries, particularly in Europe, 
once having signed the Hague Convention, then implement 
legislation or laws that allow us to deal with preexisting 
cases, and that we have made very clear with Japanese 
colleagues is important from our perspective.
    Now, the truth is we need a legal framework. We need an 
understanding of this issue that is global as a necessary first 
step. This is not easy work. It is painstaking. I also 
understand and appreciate the profound impatience. You want to 
get to this and try to see immediate progress on these specific 
cases.
    We have tried to underscore to Japan that even during this 
difficult period when they have some confusion in their 
government--we have some of that ourselves--they are still 
determined to take the necessary steps. The legal changes in 
their canon of laws are quite deep, but their government 
appears prepared to take the necessary steps. And I must tell 
you, quietly, we have had a very significant dialogue with them 
about what we expect in the implementing legislation and how we 
will not rest until we see the kinds of changes that are 
necessary and that we will certainly not abide by loopholes or 
other steps that will, frankly, somehow negate or water down 
the essential provisions of the legislation as a whole.
    I would also like to say this very carefully and directly. 
We have not ruled out any other legal process. We have not 
ruled out anything in our overall approach. And I will also say 
quite directly, we have also explored certain aspects 
associated with the extradition process. I am not going to talk 
about that any more directly. I want to just simply underscore 
that we view every tool on the table with respect to resolving 
this important issue.
    I still think the process has gone too slow. I would like 
to see it speeded up. And, frankly, one of the most important 
things that we can do on this issue is to increase awareness in 
Japan and to make clear that Americans are a patient people, 
but we also have our limits, and that while our preference is 
to solve these issues in a way that deeply respects the 
national dignity, the cultural sensitivities of all involved, 
we do reach points in struggles where we have to look at other 
means, and we are approaching that situation.
    So I am hopeful that we are going to see the necessary 
steps very shortly. We are looking forward to a deeper process 
with respect to Japan on implementing language, and we also 
want to see specific progress on particular cases.
    With that, and I am sorry to go on so long, Congressman, I 
thank you for your opportunity to appear here today.
    [The prepared statement of Mr. Campbell follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Smith. Dr. Campbell, thank you very much.
    And thank you both for your--and I said this in the 
outset--the strongest possible empathy and concern. There is no 
doubt about that.
    The key is how do we work out the best resource thing; and 
I know, Ambassador Jacobs, you mentioned some 100 people 
working, which leads to one I guess we call it oversight 
question. Back in 2000, I was the prime author of the Admiral 
Nance and Meg Donovan Foreign Relations Act of 2000. Section 
201 of that Act directed the Office of Children's Issues to 
report to each parent who has requested assistance at least 
once every 6 months on the current status of the abducted 
child's case and the efforts by the State Department to resolve 
the case. Is that being done? Perhaps it is being done even 
more robustly than that.
    And, secondly, what is the average case count per Foreign 
Service officer?
    Ms. Jacobs. Thank you for that question.
    I am pleased to tell you that we are talking to the parents 
at least twice a year and more often when there is a change in 
the case. And, also, thanks to congressional oversight which 
limited the caseload to 75, most officers only have a caseload 
of about 65 cases, but we have teams of officers working on 
abductions with case assistance.
    So what you have done for us is to make it possible for us 
to have more information about the cases, to continue to do 
training to improve our professionalism, and to just keep on 
top of all of the issues that are involved. So I thank you for 
that.
    Mr. Smith. One of the amendments that we were able to get 
into the foreign ops bill--it got pared down a little bit in 
conference, and the final wording was still, I think, very 
good--and that was to ensure that the left-behind parents knew 
that one good advocate or one course that they might choose if 
they wanted to opt in would be to contact their Congressman or 
Senators, or both, and I am wondering how that is being 
implemented. Are members being systematically advised, you 
know, observant of Privacy Act concerns and the like, when they 
have somebody in their district who is a left-behind parent?
    Ms. Jacobs. As far as I understand, when we open a case and 
the first time we talk to the left-behind parent, we tell them 
that they might want to contact their Senator or Congressman. 
Because we fully believe that your engagement really helps us. 
When Congressmen visit overseas and they raise these cases, it 
helps us tremendously to keep the momentum going forward in 
seeking a resolution to the cases, and we appreciate your help.
    Mr. Smith. If you could maybe elaborate on that, how many 
Congressmen have been so notified. Because, again, members on 
both sides of the aisle--Mr. Frank is fighting tooth and nail 
to help his constituent. We all do that, and we think we do it 
well. We want to work in concert, as a team, to use your 
phrase, with the Department. But if we don't know about it, we 
could travel to a country where somebody could be in the same 
city with an abducted child and have no clue unless we are 
somehow brought into the mix.
    Ms. Jacobs. As far as I understand the process, we tell the 
parents that they should contact their Congressman. We don't do 
that directly, because, at that point, we don't know if that is 
what they want to do. So if they do it and then congressional 
staff inform us, then we can track the case; and, if you are 
traveling, then we can give you points that you can use in 
these discussions. I mean, we want to be as helpful as 
possible, as transparent as possible, and give you the 
information you need.
    Mr. Smith. What I am trying to get at is that--and the 
reason why I wrote the language which Nita Lowey accepted, and 
Kay Granger was actually the one who brought it to her at our 
request--was to say there is value added. We may be the other 
side of town and a coequal branch of government, but we do have 
caseworkers, and we do take this personally, and particularly 
members who, like Mr. Payne and I, on the Foreign Affairs 
Committee, the interface that we have with diplomats is every 
day, but if we don't know about a case--so I hope it is being 
done very enthusiastically.
    Ms. Jacobs. It is done very enthusiastically, because we 
really need your help and support.
    Mr. Smith. Let me ask you a question with regards to 
reciprocity. One of the more disturbing issues is the lack of 
understanding that American judges rely upon with regards to 
reciprocity obligations in the treaty. How does an American 
judge know not to send a child for summer vacation, for 
example, to a country that has both been either noncompliant or 
exhibiting patterns of noncompliance?
    Ms. Jacobs. We have a network of Hague judges who do an 
awful lot of training, and I think that this is a concern that 
they would raise. Judges can also certainly call us, and we can 
provide information if they ask it.
    Unfortunately, we don't always know when these cases are 
being held. So what we have to rely on is a lot of training, a 
lot of work with our Hague network of judges, and encouraging 
them to do a lot of training so that these issues are at the 
forefront.
    Mr. Smith. Let me ask you, you know, I offered an amendment 
to the DOD authorization bill, and it largely came out of Paul 
Toland's case, which I know you are well aware of, which is a 
heartbreaker and a very long case. He got very bad advice from 
the JAG. And I know there has been one meeting. Have there been 
additional meetings to get DOD in particularly Okinawa and some 
of the places where there is more likely to be this kind of 
abuse of children who have been abducted?
    Ms. Jacobs. Thank you for raising that. I appreciate it.
    We have been doing, since your amendment to the DOD bill, a 
lot of work on training with DOD. We have had meetings with the 
chief legal counsels of all five services, we have done some 
JAG trainings both in person and through webinars, and I think 
we are making some progress. And they have given us direct 
points of contact, as we have given them, so that they can 
communicate directly with us should they have any concerns 
about a case. Because I think military personnel are at risk 
for this. They are overseas.
    Mr. Smith. Is this something that a status of forces 
agreement needs to incorporate? It seems to me that--and, Dr. 
Campbell, you very rightly point out in your testimony and 
orally--I mean, Japan is a great friend and strategic ally. 
They are key to both of our and their protection in that part 
of the world or security. And yet if, as is the case, several 
of our service members have had children abducted, and in the 
case of Paul Toland, he was in Yokohama when he was stationed 
there. It seems to me that the Japanese ought to be more 
forthcoming and say it is in their own interests to ensure that 
the courts are much more responsive than they were in his case 
and virtually every one of the other cases.
    Mr. Campbell. One of the things that we have learned over 
the process--and, frankly, lots of help from the parents in 
this--is that I think in certain circumstances we have seen a 
culture of complicity in terms of providing passports sometimes 
in situations that were inappropriate, legal corners cut that 
would favor certain outcomes; and one of the things that we 
have tried to underscore is that we are looking carefully at 
every aspect of this. So one of the things that Susan has said 
is that, you know, there are the issues going forward and the 
issues that are pre-existing, and we are trying essentially to 
divide our time to ensure that we address both issues.
    For instance, changing the procedures under which passports 
are issued, Japanese passports in particular are issued, has 
been a source of enormous pressure that we are trying to bring 
to bear. Because, as it currently stands, although it is 
changing, it is possible to get a passport without appearing in 
person.
    Mr. Smith. Yeah.
    Mr. Campbell. And we have also indicated that steps that 
would somehow be taken that would facilitate such steps by 
someone with diplomatic privileges would be viewed very 
negatively by the United States, and we would lodge some formal 
and official complaints.
    Furthermore, the efforts that you are talking about, 
particularly in Okinawa and around Yokosuka, are well under 
way. There is much more knowledge and understanding, frankly, 
not simply for the Japanese but for American service members, 
who don't often know the nature of their own legal rights and 
responsibilities. And so we have tried working with sort of 
Embassy consular and Janice's good folks, working with JAGs, 
but not just JAGs, the leading commanders of our major bases 
both in Japan and Korea, so that there is a better 
understanding of the nature of some of the existing laws and 
some of the problems that a serviceman or woman might run into.
    Mr. Smith. With regards to Michael Elias' case, obviously, 
the Japanese Government said they were investigating. Had they 
concluded that investigation? Is she being held liable, 
criminally or civilly, in any way?
    I traveled with Michael Elias' parents, and they would not 
even allow the taking parent for the grandparents to visit with 
Jade and Michael, Jr. The tears that were shed on that--and 
there are people in this room who have shed those tears every 
day, and it must be doubly hard at midnight to morning when the 
full weight of this abduction weighs upon their hearts. What 
can you tell us about Michael Elias' case?
    And let me just say, and this will underscore, after I got 
involved with David Goldman's case, people literally walked 
into my office--Patrick Braden was one of those who is here as 
well, and his daughter Melissa was abducted. He remains very 
concerned about her welfare and well-being for reasons you know 
and I know as well, based on the case.
    We went over to the Embassy, couldn't even get a meeting. 
And I will never forget this. It was her birthday that day, and 
a birthday cake was out, you know, on the sidewalk, candles 
were lit. We all sang happy birthday to his little daughter 
Melissa halfway around the world.
    The insensitivity was mind-boggling on the part of the 
Japanese Government. And you talked about sensitivity. Here is 
a man being deprived access to his daughter, and really custody 
ought to be given.
    The abducting case in, as we all know, Michael Elias, 
absolute fraud seems to have been perpetrated, duplicate set of 
passports created; and, of course, Toland and all the others, 
many of whom are here. I hope the Japanese Government gets 
that. This is not going away. It is only going to get worse in 
terms of congressional scrutiny.
    Two weeks ago, a group of parliamentarians were here from 
the Diet, and they asked that we withhold food aid to North 
Korea because of what? Abductions. And I am with them on the 
issue of abduction. Whether or not food aid is the proper way 
because of starvation that is massive in North Korea, I would 
argue it is not, but still their point about abductions, I 
agree 1,000 percent. Well, apply that equally to American left-
behind parents.
    Let me ask a very specific question, two part, and then I 
will go to Mr. Payne for any questions he might have and then 
Mr. Frank.
    You point out that among the reasons that the court could 
reject the petitions, this is Japan, of course, and Dr. 
Campbell to you, would be--and I guess this is Article 33 B of 
the treaty--the taking parent has been abused or is likely to 
be further abused. I hope that we are insisting in our 
bilateral with them that this better be evidence-based and not 
just mere assertion.
    Secondly----
    Mr. Campbell. Of course, of course.
    Mr. Smith. I am sure you are, but if you could just 
articulate, that would be helpful.
    Secondly, the taking parent faces criminal prosecution, and 
I know that very seldom is prosecutions--and you might want to 
speak to this--the International Parental Kidnapping Crime Act 
does allow for prosecutions, but they are rarely done but you 
might want to speak to how often they are done. And it would be 
very helpful to know that and for Hague countries it is not 
done, but these are pre-Hague.
    And then the taking parent cannot make the financial cost 
of living in another country. It seems to me that is like a 
loophole that you could drive a Mack truck through. You can say 
I can't buy a ticket, the taking parent, and it may cost too 
much and that becomes an opt-out. That would be rife with 
exploitation on the part of the taking parent if they were to 
be able to assert that. So I hope we are pushing back, and 
please speak to that.
    And finally, if you would, Dr. Campbell, if you could speak 
to the issue of a sidebar bilateral agreement and an MOU which, 
again, this committee went on record recently as last week 
calling for that. I hope that we do it on the full floor of the 
House. It seems that there may be no other way. I know your 
intentions are absolutely pristine and good, that maybe the 
atmosphere may open up the possibility. But I think the day 
that ascension occurs becomes a day that the left behind 
parents, whatever that number is on that day, is a day of 
mourning because it is more likely that the door just slammed 
right in their face. So if you could speak to that as well.
    Ms. Jacobs. Thank you for all those questions, and we will 
try to address them.
    In our discussions with the Japanese after they announced 
their intention to ratify the Hague Convention, we talked to 
them very specifically about taking reservations under section 
139(b), which deals with domestic violence, and it was--I met 
with them. They sent delegation to the Special Commission of 
The Hague in June, and we had our side meeting with them about 
this and said how are you going to determine. And they said 
there would be a separate judicial hearing to talk about 
domestic violence before The Hague return hearing was held. And 
we made the point that there has to be provisions for the left-
behind parent to be able to represent him- or herself at those 
hearings, and they agreed to that.
    I think that there will have to be significant changes in 
Japanese law. We just had one of our Hague attorneys visiting 
in Japan, doing training with them, and he made those same 
points, and they seem to understand it. So I am hoping that all 
of these things will--the efforts that we are making in 
training and discussions with them will make a difference and 
make the exceptions that they take livable.
    Now, many countries take exceptions to certain parts of the 
convention, as we did on providing free judicial assistance, 
and so we just have to make sure that the form of these 
reservations that they are taking doesn't interfere with the 
real intent of the treaty which is to get the children back to 
the United States.
    Mr. Smith. What about the other two provisions?
    Ms. Jacobs. Now, on the criminal aspect of it, the Hague 
Convention does envision civil remedies, and I think that if 
there is a return, I mean, that is the best way for it to be--I 
don't know right now of any cases where--we are not--I mean, 
the State Department is not a law enforcement entity. So we 
have to rely on the FBI and then the FBI would have to go to 
Federal prosecutors to initiate a case. I am not aware that any 
cases are active right now. So I mean that--that isn't to say 
that there could be cases that are in the works, and so that is 
not something that I can really respond to.
    Mr. Campbell. If I could just be clear on that, 
Congressman, Ambassador Jacobs has been very careful here. I 
think that we would just simply say we are not ruling anything 
out and we have explored a lot of different options, and 
tomorrow in our private session we will be able to go over a 
little bit of that. But shall we say that we have looked at 
every case?
    We have also been involved in, shall we say, an education 
campaign. Some of the problems that we have, frankly, are local 
law enforcement who don't fully understand some of the 
circumstances, and working with various regional law 
enforcement entities and judicial entities. We have explored a 
variety of options, and we just want to underscore--and in 
diplomacy, when you say you are not going to take something off 
the table, there is a very clear intent associated with that, 
and I would just like to stand by that if I may.
    Mr. Smith. Here is the interesting thing, when you talk 
about the violence issue, if a court of competent jurisdiction 
in the United States had an enforceable order and allegations 
of violence were not asserted, of if they were, they were found 
to be infirm, does the court or would they contemplate that in 
Japan, they would take that all up like it is brand new ground 
or would, like in keeping with the spirit of the 1996 
convention, look to enforce each other's court orders? Because 
that is a major--otherwise it starts all over with a 
potentially false allegation of violence that has to be 
adjudicated all over again, and if you heard from David 
Goldberg's case where there was no violence ever asserted but 
they used the courts or misused the courts for 5\1/2\ long 
years and, you know, to the tune of $0.5 million on his part.
    Ms. Jacobs. The President signed the protection of a child 
convention in October, and we are exploring--I mean, we are 
working very actively with the Uniform Law Commission to figure 
out what implementing legislation we will need. This convention 
would be a great complementary convention to the abduction 
convention because it calls for recognition of foreign custody 
orders, and if there were a custody order, then we could 
present that and it would really eliminate so many problems.
    Mr. Campbell. It is a huge deal.
    Ms. Jacobs. It would be done and so----
    Mr. Campbell. And that is our goal. That is our goal. Can I 
also say, Congressman, one other thing that we have tried to 
do--and again, thank the parents. Sometimes they come up with 
the most creative ideas and suggestions. And so in the 
immediate aftermath of this, you know, horrible tragedy, this, 
you know, tsunami, nuclear challenge that Japan has faced, some 
of the parents contacted us and said, look, you know, we are 
worried about the well-being of our family, of our children. 
And working closely with consular affairs, we made it so that 
every single one of those children could get a passport, 
American passport. Now, unfortunately that was not taken 
advantage of, but we are going to look to take creative steps 
both legal, procedurally, and the like.
    It is also the case, if I may say--and I want to be careful 
about this. We have, in the last many months, had a couple of 
other cases where we have made progress where the particular 
parent has been reluctant to put too much attention on it for 
fear that there will be backtracking, and so I do think we are 
starting to get a critical mass both inside the Japanese 
Government, certainly in the U.S. Government.
    And if I can just conclude with this one thing, 
Congressman. I mean, the biggest surprise in my job, when I was 
in the Pentagon at the lower level 10 years ago, I had a lot of 
people that were interested in foreign policy and a lot of, you 
know, issues. I don't see very much of that today. I see a lot 
of insular congressional focus, even--and this is not just 
about American livelihoods, but it is also about how we 
interact with the world.
    I would love to have more people like you and Congressman 
Payne focused on this, but I don't see as much as I would have 
anticipated.
    Mr. Smith. Well, one way of doing that is reaching out to 
those Members of Congress, House and Senate, when there is an 
abducted--I mean, really tell them how much value-added that 
potentially could be. We would have more Members here, I think, 
if they had someone in their district who all of the sudden it 
becomes very real and very personal to them and if you could 
speak to--because you didn't answer the question on that, the 
final question about the MOU.
    Mr. Campbell. Yeah. I will say honestly, Congressman, 
almost every hearing is like this. So I don't--I wish--I hope 
you are right, and I would like to see that, and I think we 
will take further steps, but I find in general--that is the 
general issue.
    We have had some discussions. From the Japanese 
perspective, it is a complete nonstarter, and the key here is 
the letter ``U,'' understanding. It requires a degree of 
partnership and engagement on the Japanese side. Their view is 
that we are going--we are addressing this according to your 
concerns. You have asked us to work on the issues associated 
with Hague. We have indicated that we need to see progress on 
existing cases, but on this particular issue, they are not 
prepared to go down this path. They said, look, we are better--
we are better to focus on these other matters and think in many 
respects----
    Mr. Smith. Again, Madam Secretary, and Dr. Campbell, what 
is our position? Is it our position to push for an MOU in a 
bilateral agreement?
    Mr. Campbell. If we could get an agreement with the 
Japanese Government to return these children, we would have 
gotten--we would have sought it years ago.
    Mr. Smith. But are we pushing for that agreement at the 
highest level? I know we pushed for Hague, and kudos for that, 
but again, the day they sign is a bittersweet day for the left-
behind parents because by definition they are excluded because 
it is often date of entry into force onward and the door closes 
behind them. I mean, the idea is that the Japanese should say 
all in, we are all in, we mean it, and it is a test of their 
sincerity, frankly.
    Ms. Jacobs. I think we have always pursued two tracks, both 
of which are incredibly important. One was getting these 
children returned to the United States and the other is Hague. 
And we are not going to give up on getting the children back to 
the United States, and we will figure out a way to do it.
    Mr. Smith. Thank you. Mr. Payne.
    Mr. Frank. Could I, Mr. Chairman, and I apologize but I 
have been--if you just give me 1 minute, Don.
    I have some questions I will submit in writing to 
Ambassador Jacobs because I can tell they are not going to be 
answered publicly. It has to do with law enforcement. I mean, I 
want to get to the issue--in some places, we have clear-cut 
violations of the law, and I understand you are not the FBI, 
but I am going to submit some specific questions both about 
extradition and about visa revocation for people who have been 
involved.
    But I would suggest, too, Mr. Chairman, I think probably 
this is an intracommittee thing, and I think it would probably 
be useful if this subcommittee, which has been the leader in 
this, would be to talk to our colleagues in Judiciary and have 
a joint confidential briefing of those of us who are 
interested, and let's pursue the case of extradition. Let's 
pursue the case of visa revocation letters.
    I understand I am not going to get public answers because I 
am talking about some period of actions against individuals, 
but I would be glad to participate, and I am sure our 
colleagues in Judiciary would, and we would ask for a private 
briefing so we would have no holds barred. And I just want to 
put people on notice, I want to know who you are trying to 
extradite and why not, if not, and what about visas and what 
about other very specific sanctions.
    Mr. Chairman and Mr. Payne, thank you very much for 
accommodating me.
    Ms. Jacobs. We would welcome that opportunity, sir.
    Mr. Payne. Thank you very much. I know that there is a time 
constraint and the witnesses wanted to be out by 4 o'clock. So 
I see that if that is the case, I need to stop now, but I will 
be brief just in order for you to meet other commitments that 
you may have.
    I just might ask you, Ambassador Jacobs, as you note in 
your testimony, the Office of Children's Issues in the U.S. 
Central authority for incoming and outgoing applicants pursuant 
to the Hague Convention. In 2010, the State Department's Office 
of Children's Issues reported 1,495 international custody and 
access cases involving 2,123 children. This is twice the number 
of cases reported in 2006, and if indeed we start to really 
circulate memorandums or Dear Colleagues asking Members of 
Congress, do you have any concerns and issues, we would 
certainly assume that there would even be a quantum leap in the 
number of cases.
    So my question is how is the budget, and as you may know, 
there are proposed cuts in this area. And do you--one, do you 
have the ability to handle the number of cases now in this U.S. 
Central authority to the children's issue group, and with the 
expectation that there will indeed be a bump up just by virtue 
of their being more attention paid to this issue? We don't want 
to raise expectations and then you be unable to handle the 
load. I just wonder if you could deal with that for a moment, 
Ambassador.
    Ms. Jacobs. Thank you for that question, sir. Because of 
the congressional limit on the number of cases that each 
officer can handle, we are able to hire to meet demand. The 
cases that are open are an accumulation from the last--these 
are all the open cases. The 1,491 children are the total cases 
that are still open over the years, and some of them--most of 
them are active and we try to talk to the parents, call them, 
make sure that they are still interested in pursuing a return.
    But we always--you know, if we had more money, we could do 
more training. We could do more outreach. I mean, there are a 
lot of good things that we could do with additional funding, as 
could the permanent bureau of The Hague. So we welcome your 
interest and we will call on you to help us. Thank you, sir.
    Mr. Payne. All right. Just another quick question.
    Although the United States, Ambassador Jacobs, criminalizes 
international parental child abductions, we know other 
countries do not, including several of the Asian Pacific region 
and that area. According to the State Department's Office of 
Children's Issues Web site, examples include Indonesia, 
Malaysia, the Philippines, and Thailand. So I guess my question 
is, to what extent, in your opinion, criminalization, or 
criminalizing international parent-child abduction an important 
policy tool and what are merits and limitations as an effective 
means to prevent, combat, and punish international parental 
abduction?
    Ms. Jacobs. Thank you for that very difficult question. I 
think that I can understand why we have criminalized 
international child abduction. It is a crime. Other countries 
don't do it that way. In discussions, for example, that I had 
in India, I was told that it is impossible for a parent to 
abduct their child. And if countries would join The Hague, then 
we could work on civil remedies. We would be able to use 
diplomacy in order to get these children back. Having the 
criminal remedy on the table, I think, makes it difficult for 
some countries to cooperate with us, but that doesn't mean that 
we don't keep pushing them to do what they ought to do.
    Mr. Payne. In that same regard, you know, evidently there 
are certain cultural differences around the world. That is an 
understatement. In some cultures evidently, the maternal part 
of the view of the family, just in general, that--or maybe just 
that a mother is the natural--if there is one parent, the 
natural movement is for it to be the mother. They are more 
compassionate supposedly; they will do a better job. It is the 
culture, in many instances, and so do--and either one of you 
could handle that. How much do you feel that there are just 
honest beliefs that their culture--I mean, I am not talking 
about criminality or anything, but just a normal divorce case, 
so to speak, in India or Malaysia, that culture would, do you 
think, have a way of creeping into the decisions, even if it is 
not intentional but it is just a matter of the culture?
    Ms. Jacobs. Thank you for that. I do think it is cultural, 
and I suggest to people that they watch Kramer v. Kramer which 
shows that a father can be a loving, caring parent, and can do 
just as good a job raising a child as a mother can.
    Mr. Payne. Even here in the United States in parental 
custody cases, you have almost got to be a Lady Simon Legree to 
not get the custody in a lot of instances.
    Ms. Jacobs. Unfortunately, I think there is that bias and 
it still exists in many countries. In the Middle East, it is 
assumed that the mother will raise the child until a certain 
age, and then the custody goes to the father, and that can be 
another difficulty. But there are biases and that is why we 
like The Hague because it eliminates gender bias, and it is 
based on habitual residence of the child and eliminates a lot 
of those issues.
    Mr. Campbell. Just two things, Congressman. These are 
excellent questions, but first, on the issue of the legal 
status associated with child abduction--and I think Ambassador 
Jacobs is clear that sometimes in certain circumstances, that 
it has created some challenges with other countries. But it is 
also the case that almost all countries have specific 
jurisdictional issues and assignments associated with 
kidnapping, and it is those set of issues on which we believe 
that we can make substantial progress. That would be the first 
point.
    The second is that, would that it be just maternal issues. 
In truth, in many societies, it goes even further than that. 
There are both maternal issues and there are also ethnic issues 
that come to play sometimes that overcome maternal issues. And 
so these are very complicated, very deep seated and hard to 
tease out and also hard to confront sometimes.
    And to be perfectly honest, as the Ambassador indicates, 
there are many aspects of Hague that you would say, well, 
imperfect, but overall, it is a remarkably effective tool to 
address an issue that is going to grow in magnitude because the 
number of cross-national marriages has increased dramatically 
in the last decade, and will again in the next decade.
    Mr. Payne. Well, thank you very much. I think that it is 
important that we support international organizations like 
this, and I think that The Hague is the type that we would 
agree, although we are seeing somewhat of a growing move on 
some folks' philosophies that we withdraw from international 
groups. And so I think that if that trend tends to continue, we 
are going to find ourselves at a disadvantage with things like 
The Hague, and in my opinion, most international organizations 
tend do much more good than some other times when they are not 
as effective as we would like them to be.
    But because of your time, I yield back and the chairman may 
have some other questions. Thank you.
    Mr. Smith. Just a few follow-ups. I thank you very, much, 
Mr. Payne, for your questions. If I could ask a couple of final 
questions, and I know you do have to leave, and I thank you for 
your patience.
    Left-behind parents have received conflicting reports as to 
whether their specific cases have been raised by name with 
Japan. One left-behind parent received a response to his 
inquiry that states the following, and I will just quote it. It 
is from an e-mail. We have the e-mail.

          ``The State Department has not formally demanded the 
        return of any abducted children. As you know, one of 
        the challenges inherent in resolving parental child 
        abduction cases is overcoming the differences in law 
        between sovereign Nations. The policy of the United 
        States Government is to use bilateral relations to 
        press for ratification of, or compliance to, the Hague 
        Convention and for non-Hague countries, such as Japan, 
        to assist left-behind parents in obtaining access or 
        return of their children.''

    Is this e-mail accurate? Do we raise specific cases with 
the Japanese, and do we then report to the left-behind parent 
as to what it is that was gleaned from those conversations?
    Ms. Jacobs. Yes, sir, we do. We do raise individual cases 
with the permission of the parents, and then we report back to 
them.
    Mr. Smith. Is that done for each parent?
    Ms. Jacobs. It is up to the parent. I think some of the 
parents have asked us not to raise their individual cases.
    Mr. Smith. So everyone who wants their case raised by name 
with the Japanese Government, and who are your interlocutors?
    Mr. Campbell. I am not a consular official, but I have been 
in many, many, many, many, many meetings where cases have been 
made directly at very high levels, and so it is very hard--I 
don't know who that e-mail is from. I don't know what it is 
referring to. All I can tell you is I have sat watching either 
our Ambassador in Japan or a consular official go through the 
particulars of a particular case, not with a--you know, with a 
legal person but a higher level political person in Japan in 
order to make an important point that these are not just 
faceless people, you know, just statistics, that we have real 
people behind these cases.
    Mr. Smith. The person at OCI is Courtney Houk, and I am not 
sure what she means by has not formally demanded the return of 
any abducted children.
    Mr. Campbell. I don't--I don't know. I can't----
    Ms. Jacobs. We will find out, and we will get back to you.
    Mr. Campbell. I don't know what she means.
    Ms. Jacobs. We will get back to you on that.
    Mr. Smith. Let me, if I could, in your testimony, you point 
out 123 active abductions involving 173 children. That is 17 
more children just than just 2\1/2\ months ago. Is that because 
more children have been abducted or new cases have just come 
into the office or what?
    Mr. Campbell. I think I can answer that, but one of the 
things that I think we found generally when we started looking 
at these cases is that the database was not uniform. A lot of 
cases had sort of fallen off, and so Janice's organization, 
consular affairs, all of our people in Tokyo have made a 
concerted effort to contact every single person we can and try 
to figure out what are the active cases. It is my belief that 
those cases reflect a greater precision of what the nature of 
the existing pool is, not new cases in the last 3 months.
    It is also the case that there are some families, some 
separated families that were not aware of some organizations, 
not aware, and because of publicity, again a good thing, that 
they have joined in this overall effort. So I think that is the 
primary--I don't believe there has been any new cases of note 
over the course of the last 3 or 4 months, not that I am aware 
of.
    Mr. Smith. Just two final questions. Michael Elias' ex-wife 
has denied any welfare or whereabouts--visits with the 
children. In that case, or in any other like it, what do we do 
next? He doesn't even know----
    Mr. Campbell. I totally understand. I completely 
understand. I mean, there is several--I mean, very difficult 
case like this, Congressman, the truth is you have to work on 
many fronts. The first front is, again, try to establish the 
larger overarching legal framework, which is The Hague, 
establish the framework and then work on the corresponding 
implementing language.
    We press Japanese authorities who are in touch with various 
taking parents to very assertively make the case about--yes, 
can I just tell you I have just been informed and I apologize 
for this, that the nuclear crisis did cause some left-behind 
parents to get back in touch and we reopened some of those 
cases. So that--I think--that I think is what I was trying to 
say in terms of these are cases that have already been--that 
have been in the works or had been around for many, many years, 
but they are reopened because of the nuclear case, but I don't 
think there has been anything new--not a new abduction.
    Mr. Smith. Were the children minors throughout?
    Mr. Campbell. I don't know the nature, but I did want to 
give you accurate information on that.
    So let me just say that it is also the case that we find 
that many of the taking parents have legal counsel in Japan. 
There are a group of lawyers that specialize in Japanese law, 
what their rights are and how to use aspects of Japanese law. 
Almost all of the most difficult cases we have found, or many 
of them, involve legal advice that while technically accurate 
within the Japanese context is frankly extraordinarily 
unhelpful, and we have also asked Japanese authorities to look 
carefully at some of these activities as a whole.
    The truth is, Congressman, cases like this are just a 
tragedy and we are applying--I think we are trying to make 
clear to you--we are trying to apply every possible tool, 
including some legal issues.
    Now, the truth is we have made clear to Japanese colleagues 
and friends that we are going to look carefully at all avenues 
and that they need to understand the urgency and that outrage 
is growing on Capitol Hill, indignation, not just among the 
parents but a much broader group of the American people and the 
electorate and in the executive branch. And they have a chance 
to do this under the right conditions, right, in the spirit of 
partnership, of humanity, of a strong bilateral relationship.
    But ultimately, I come down where Congressman Frank 
indicates, that in a case where the clear-cut needs of American 
families come to play, then we are going to have to take a very 
hard look, and I must say, I am not ashamed about the steps 
that we have taken in support of the Japanese abductees, but I 
think our parents have a right to say, look, let's expect the 
same thing in return. And we make that point in almost all of 
our meetings, very different circumstances obviously, but we 
want the same compassion and commitment from Japanese 
colleagues.
    Mr. Smith. I will just conclude with this and throw it at 
you one more time on the bilateral agreement as to whether or 
not you would consider establishing a special court that would 
adjudicate these cases? I mean, this is a festering sore that 
will only grow, and I hope the Japanese Government understands 
it. We are close friends and allies, but this is a human rights 
abuse against American children and American left-behind 
parents.
    I will continue to push hard for H.R. 1940, and it is a 
matter of when and not if that I believe we will get that 
enacted, and I say that because there needs to be penalty 
phase. Friends don't let friends commit human rights abuses 
whether it be human trafficking, religious freedom, or any 
other abuse. It is the Hague Convention, and its genesis shows 
clearly parental abduction is child abuse. It hurts the child, 
more than anyone else injures the left-behind parent, but it 
hurts the child. I know you know that and I know you know that 
well.
    I do believe there needs to be a penalty phase at some 
point for a country, ally or not, that continues its obstinacy 
with regards to this. So I would ask you to--I am not sure who 
has made the decision to accept no as no, but if the Secretary 
of State, President Obama, if you, who deal with this issue 
every day, could work it to try to turn that no to a yes for a 
bilateral agreement, otherwise I have a sense of fright--and I 
talk, like you, to the left-behind parents. They sense when 
that door closes it will not create an atmosphere that will 
resolve the older cases. They will be grandfathered in as older 
cases, cold cases that don't get resolved.
    There may be an exception somewhere, but I think human 
nature being what it is, time and delay is denial. Those 
children will grow. They will be 21, 30, who knows what it will 
be, they will get to see Mom or Dad then, but these are these 
years that are irreplaceable.
    So I ask you, please, push for that bilateral agreement, 
special court, call it whatever you want, or whatever modality 
you choose, but there needs to be a process and an agreement 
between our two countries. Otherwise, there needs to be a 
penalty phase, and because they are getting away with 
abduction. So if you want to respond to that.
    Ms. Jacobs. I don't think the door's ever closed to trying 
to reach an agreement on this. I think there are a number of 
ways that we can try to do it. One of them is in changes in 
Japanese domestic law that they will need to make anyhow in 
order to join--to ratify the convention, and we can encourage 
them to include the older cases in this ratification.
    Mr. Smith. But, again, I would hope that President Obama 
would talk to the Prime Minister and say solving these cases--
and it will take, I think, a mechanism--it won't happen by 
just, say, a wave of the arm or the wand. So make that, you 
know, his major talking point in his next meeting.
    Mr. Campbell. Let me just say we have had great success 
in--Secretary Clinton has made this a major issue with her 
various meetings with the Japanese foreign minister, and we do 
agree that this has to be an issue that is raised at the 
highest level in our Government. It is also the case, frankly, 
that we underscore to Japan what a success story looks like, 
and the most recent one was really in the Clinton 
administration.
    We had a huge problem with Germany, lots of pressure. 
President Obama--President Clinton went, worked with the German 
Government. We now have a much, much better situation, and I 
will underscore that many of those preexisting cases were dealt 
with.
    And so we understand--I don't know how else to say this, 
Congressman--that it is not enough just to work on going 
forward. It has to be--it has to involve the existing. When you 
say ``preexisting cases,'' it sounds so antiseptic--the ongoing 
crisis and the enormous challenge that these families are 
facing right now, and we expect that those issues will be dealt 
with. I don't know how else to say it, and frankly, I really--
every single possible thing we are doing right now, we are 
doing, at least at my lowly level I am doing.
    Mr. Smith. As you know so well, every day of continued 
unlawful retention is another day of abuse. Mr. Payne.
    Mr. Payne. Just a quick closing comment. We have heard, and 
you talked about the great success breakthrough finally in 
Germany. We are at loggerheads here and Japan. So evidently, 
the countries where we have the largest number of these cases 
are countries where we have had military installations and 
marriages between U.S. GIs and the current population.
    Since we are having a 10-year war in Iraq and less than 
that in Afghanistan, I just wonder whether, is the nature of 
these rotations and wars and the manner in which war is 
conducted today different, and therefore, we don't necessarily 
have to anticipate that 2 or 3 years from now we are going to 
see two additional countries where we are starting to come up 
with a lot of clashes and loggerheads? How is the current 
conflicts we find ourselves in, in your opinion, leading to the 
situation whether because of the difference in the manner in 
which we--war is waged, we may not have the same problem?
    Mr. Campbell. Yeah. First of all, just two things, 
Congressman Payne. In truth, most of the abductions are to 
Canada and Mexico, just as a starting point; and secondly, the 
nature of the conflicts in Iraq and Afghanistan are such that 
there is not the kind of, you know, off-time fraternization 
mingling that we see in circumstances where you are at peace 
but living, you know, in another country and out on the 
economy. So I don't anticipate this problem in many places, for 
a variety of reasons, in the Middle East. Okay.
    Mr. Smith. Thank you. I want to thank our distinguished 
witnesses, Dr. Campbell and Ambassador Jacobs, for your 
testimony. Look forward to working with you going forward.
    I do ask unanimous consent that members of the subcommittee 
have 5 days to revise and extend their remarks and submit--and 
we will submit some additional questions. Mr. Payne might have 
some additional ones as well on a number of other countries 
that we have concerns about. So I thank you and this hearing is 
adjourned.
    [Whereupon, at 4:35 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre></body></html>
